No. 21- _____________________
______________________________________________________________________________
SUPREME COURT OF THE UNITED STATES
______________________________________________________________________________
Martha Aguirre,

Petitioner,
vs.
The United States of America,

Respondent.

______________________________________________________________________________
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit
______________________________________________________________________________
PETITION FOR A WRIT OF CERTIORARI
______________________________________________________________________________
M. Kirk Okay

CJA Attorney for Petitioner
The Okay Law Firm
546 East Main Street
Post Office Box 622
Batavia, New York 14021-0622
Telephone (585) 343-1515
Email: mokay570@gmail .com
______________________________________________________________________________

I.

Question Presented

Whether the Due Process Clause is violated when the only witness for the
Government linking the appellant to a narcotics conspiracy commits
perjury in material testimony before the grand jury relative to an element of
knowledge, and then subjectively makes the same misrepresentation before
the trial jury in connection with the same subject matter, and the
misrepresentation is left uncorrected by the Government.

i

II.

Table of Contents

I.

Question Presented

i

II.

Table of Contents

ii

III.

Table of Authorities

iii

IV.

Petition for Writ of Certiorari

1

V.

Opinions Below

1

VI.

Jurisdiction

1

VII.

Constitutional Provisions Involved

2

VIII. Statement of the Case
IX.

2

REASONS FOR GRANTING THE WRIT
THE COURT SHOULD CLARIFY A SUBJECTIVE STANDARD FOR
DELIBERATE IGNORANCE KNOWLEDGE THAT WILL AVOID
THE APPEARANCE OF A DUE PROCESS VIOLATION SIMILAR
TO THAT WHICH OCCURRED IN NAPUE V. ILLINOIS, 960 U.S.
264 (1959)
5

X.

CONCLUSION

10

XI.

APPENDIX

12

ii

III.

Table of Authorities
Cases
Page

Alcorta v. Texas, 355 U.S. 28 (1957)

8

Brady v. Maryland, 373 U.S. 83 (1963)

9

Giglio v. United States, 405 U.S. 150 (1972)

9

Mooney v. Holohan, 294 U.S. 103 (1935)

8

Napue v. Illinois, 360 U.S. 264 (1959)

ii, 7, 8, 9

United States v. Rodriguez, 983 F.2d 455 (2d Cir. 1993)

5

Statutes
18 USC § 1956(h)

2

21 USC § 841

2

21 USC §846

2

28 USC § 1257

1
Constitutional Provisions

United States Constitution, Amendment V

iii

2

IV.

Petition for Writ of Certiorari

Martha Aguirre, an inmate currently incarcerated at FCI Phoenix in
Phoenix, Arizona, by and through M. Kirk Okay, CJA counsel of record in the
district court and in the United States Court of Appeals for the Second Circuit,
respectfully petitions this Court for a writ of certiorari to review the 6 May 2021
Summary Order of the United States Court of Appeals for the Second Circuit
affirming the judgment of the district court in this case.
V.

Opinions Below

The United States Court of Appeals for the Second Circuit, in a Summary
Order entered 6 May 2021, affirmed the judgment of conviction entered in the
United States District Court for the Western District of New York. The Summary
Order is attached hereto at Appendix 1-14.
VI.

Jurisdiction

The Summary Order of the United States Court of Appeals for the Second
Circuit was entered on 6 May 2021. Aguirre invokes the jurisdiction of the Court
under 28 USC § 1257, having timely filed this petition for a writ of certiorari within
ninety (90) days of the entry of the 6 May 2021 Summary Order of the United
States Court of Appeals for the Second Circuit.

1

VII.

Constitutional Provisions Involved

United States Constitution, Amendment V:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject for
the same offense to be put twice in jeopardy of life or limb; nor shall any
person be subject for the same offense to be put twice in jeopardy of life or
limb; nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty or property, without due process of
law; nor shall private property be taken for public use, without just
compensation.
VIII.

Statement of the Case

The petitioner was convicted following a jury trial in the United States
District Court for the Western District of New York (Buffalo) with one (1) count of
narcotics conspiracy in violation of 21 USC § 841 and §846, and with one (1) count of
money laundering conspiracy in violation of 18 USC §1956(h). There was one (1)
co-defendant at trial, Juan Alfaro, who was also convicted on the same two (2)
counts.
The petitioner was sentenced to an aggregate term of imprisonment of 150
months with five (5) years of supervised release.
At trial, the only witness against the petitioner in connection with the
narcotics conspiracy count was a co-conspirator, Sonia Hernandez. Prior to her
testimony at trial, Hernandez had pled guilty pursuant to a written plea agreement
2

to the same narcotics conspiracy and money laundering conspiracy the petitioner
was charged with.
At trial Hernandez recounted a transcontinental road trip she made with the
petitioner from Los Angeles to Buffalo over the 2014 Memorial Day weekend in a
rented vehicle into which a large quantity of narcotics had been concealed at the
behest of the brother of the petitioner, Herman Aguirre, who was the employer of
Hernandez at a payroll processing and employee leasing business he owned in Los
Angeles.
Hernandez also testified at trial about how she was arrested less than one (1)
month later, in June of 2014, driving another rented SUV with narcotics concealed
inside, on an interstate highway in Seward County, Nebraska, enroute again from
Los Angeles to Buffalo. The petitioner was not with Hernandez at the time of the
Nebraska motor vehicle stop.
In her plea colloquy before the Article III judge in the United States District
Court for the Western District of New York prior to her trial testimony, Hernandez,
under oath, stated (1) that she had knowledge narcotics were concealed in the
rented SUV she drove from Los Angeles to Buffalo over the Memorial Day weekend
in May of 2014; (2) that she had knowledge narcotics were concealed in the rented
SUV she was driving when she was stopped in Nebraska in June of 2014; and (3)
that she lied under oath when she testified before the grand jury that she had no
3

knowledge of the narcotics concealed in either SUV on the two (2) occasions in
question. Hernandez, in prior relevant and material testimony before a federal
grand jury, denied all knowledge of either the Memorial Day narcotics, or the
Nebraska narcotics, thereby committing perjury before that body.
At trial, Hernandez, in direct contrast to her plea colloquy, testifies
unequivocally under cross-examination that she has no knowledge that either SUV
contained concealed narcotics. On re-direct examination, Hernandez is asked by
the Government if she is aware of the legal definition of knowledge. Hernandez
states that she is unaware of that technical legal definition.
Direct Appeal
The United States Court of Appeals for the Second Circuit, by Summary
Order entered 6 May 2021, affirms the judgment of conviction entered in the United
States District Court for the Western District of New York.
The Second Circuit holds that the doctrine of conscious avoidance supports an
inference of knowledge on the part of Hernandez based upon her testimony inter

alia that “… the less I knew of what was going on, …[the] better for me,” App’x
1468−69 and that she had “some sort of suspicion” about what the vehicles
contained. As a result, Hernandez “was aware of a high probability of the fact”
that the trips were in service of drug trafficking and she “consciously avoided
4

confirming that fact.” United States v. Rodriguez, 983 F.2d 455, 458 (2d Cir. 1993).
IX.

REASONS FOR GRANTING THE WRIT

The Court should clarify a subjective standard for deliberate ignorance
knowledge that will avoid the appearance of a due process violation
similar to that which occurred in Napue v. Illinois, 360 U.S. 264
(1959).
The doctrine of conscious avoidance weaves in and out of this case like a
classical Greek chorus. For example, although not featured as a part of this
petition, the Second Circuit in their 6 May 2021 Summary Order, relies upon the
doctrine of conscious avoidance to establish the second (scienter) element of the 21
USC §1959(h) money laundering conspiracy cause of action that was challenged by
the petitioner in the direct appeal.

The Second Circuit notes near the outset of

the Summary Order that “[t]he defendants concede that there was a money
laundering conspiracy and that drug-trafficking proceeds passed through their bank
accounts.” The Panel must find support for this conclusory statement of concession
in the fact that neither one of the co-defendants at trial challenged either the first
or the third elements of the money laundering conspiracy cause of action in their
direct appeals. Only the instant petitioner challenged the second element of
knowledge, and the Second Circuit found that knowledge was proved beyond a
reasonable doubt at trial through the application of the doctrine of deliberate
ignorance. Interestingly, the Second Circuit, on Page 7 of the Summary Order,
5

states that “Aguirre purportedly never asked where the money came from, despite
the large sums involved.” This observation must be gratuitous since the petitioner
never waived her right to remain silent. The petitioner does not note that she
refrains from confirming the source of the monies deposited into the Kamora bank
account(s) in her affidavit that is read into the record on Pages 892−94 of the
Appendix.
Turning to the issue that is the focus of this petition, and as noted supra, the
Second Circuit also utilizes the doctrine of conscious avoidance to excuse the many
misrepresentations of Sonia Hernandez at trial.
The Second Circuit states on Page 10 of the Summary Order:
This [sic] is no contradiction between Hernandez’s guilty plea and her
testimony. Based on her testimony, a reasonable juror could infer that
Hernandez “was aware of a high probability of the fact” that the trips were in
service of drug trafficking and she “consciously avoided confirming that fact.”
Rodriguez, 983 F.2d at 458. Hernandez’s guilty plea to participating in the
drug conspiracy is therefore consistent with her testimony that she lacked
specific knowledge about what she was transporting because she deliberately
avoided confirming her suspicions.
The difficulty with this, however, is that when Hernandez denies knowledge
of the narcotics in her trial testimony, she is not relying upon the doctrine of
willful blindness to support an inference that is consistent with both knowledge,
and with the admission of knowledge that she makes under oath in her plea
colloquy. Sonia Hernandez admits that she has no legal training, and that she is
6

unaware of the technical legal definition of knowledge: which can be actual,
constructive or imputed.
Even though the Second Circuit utilizes the doctrine of conscious avoidance
to sustain the apparent contradictions in the testimony, at core, it is apparent that
Sonia Hernandez is not relying upon some doctrinal approach to steer a middle
course between the creation of a false impression that she is an unwitting
employee who is being used as a beast of burden by the mastermind brother of the
petitioner, and the avoidance of a perjury trap.
In Napue v. Illinois, 360 U.S. 264 (1959), a situation at trial developed when
material misrepresentations were made in testimony that were significant enough
to be held as perjury. An accomplice testified, falsely, that he was receiving no
consideration for his cooperation as a witness for the prosecution. This Court held
that the uncorrected perjury in that case represented a violation of the Due Process
Clause, even though the testimony presented affected only the credibility of the
witness, and did not directly relate to the guilt, or non-guilt, of the accused.
It is unusual to see gradations of knowledge set forth in the factual bases of
the written plea agreements that are routinely filed in the federal courts of this
country. Knowledge is knowledge, just as a lie is a lie. When Sonia Hernandez
denies knowledge of the narcotics until after she was pulled over, is she is really
thinking to herself; “If I deny knowledge now, it won’t be inconsistent with my
7

earlier admission of knowledge, because there is enough evidence in this record to
demonstrate that I should have asked certain questions, and that I should have
known. And that is enough to infer knowledge, so there is no perjury.” Or is
she just trying to make herself look good as a witness in front of the jury? For
whatever reason, she is not forthcoming about her knowledge of the narcotics
during her testimony at trial. Hernandez flatly denies knowledge. Repeatedly. At
the very least this impacts the credibility of the witness in a manner contemplated
by Napue. And the only thing the Government does to correct the false testimony
is to ask the witness if she had ever been to law school, and if she knows what the
legal definition of knowledge is.
This Court has repeatedly addressed whether the Due Process Clause is
violated when prosecutors knowingly use false testimony in a criminal trial.

In

1935, the Court briefly wrote in Mooney v. Holohan, 294 U.S. 103, that prosecutors
violate the Due Process Clause if they knowingly present perjured testimony. The
Court expanded on its decision in 1957 in Alcorta v. Texas, 355 U.S. 28, where it
held that a prosecutor’s neglect to correct false testimony is equivalent to knowingly
presenting perjured testimony. However, in Alcorta, the Court refrained from
setting a specific standard regarding when false testimony becomes material
enough to warrant reversal of a conviction.

8

After Napue, in 1963, the Court decided Brady v. Maryland, 373 U.S. 83,
which held that the Due process Clause requires prosecutors to disclose all
exculpatory evidence to the defense. In 1972, the Court decided in Giglio v. United

States, 405 U.S. 150, that it is a due process violation if a prosecutor fails to correct
perjured testimony if the prosecutor’s office was aware of the lie, even if the trial
assistant in courtroom was not. In Giglio, the Court also decided the threshold
materiality for Napue claims, holding: “A new trial is required if the false testimony
could […] in any reasonable likelihood have affected the judgment of the jury.” Id at
154.
This case presents an opportunity for the Court to articulate a strict standard
against which the knowing use of subjective perjury at trial may be tested.

9

X.

Conclusion

For the foregoing reasons, Martha Aguirre respectfully requests that this
Court issue a writ of certiorari to review the Summary Order of the United States
Court of Appeals for the Second Circuit.
DATED:

August 4, 2021
Respectfully Submitted,
_______________________________
M. Kirk Okay
CJA Counsel to the Petitioner
The Okay Law Firm
546 East Main Street
Post Office Box 622
Batavia, New York 14021-0622
Telephone (585) 343-1515
Email: mokay570@gmail.com

10

Certificate of Compliance
As counsel of record, I hereby certify that this Petition complies with the
word count limitation set forth in Rule 33(h) of the Rules of the Supreme Court of
the United States. I am relying upon the word count of the word processing system
(Microsoft Word) used to prepare the Petition, which indicates that 2540 words
are contained herein.
_______________________________
M. Kirk Okay

CJA Counsel to Petitioner

11

Appendix

12

